HHS/OIG-Audit--"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross and Blue Shield of Michigan, (A-07-96-01178)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pension Costs Claimed for Medicare Reimbursement by Blue Cross
and Blue Shield of Michigan," (A-07-96-01178)
November 8, 1996
Complete Text of Report is available in PDF format
(1.96 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of Pension Costs Claimed
for Medicare Reimbursement by Blue Cross and Blue Shield of Michigan for 1986
through 1994. During this period, the allowable Medicare pension costs were
$4,775,314. However, Blue Cross and Blue shield of Michigan (Michigan) claimed
pension costs of $5,406,562 for Medicare reimbursement. As a result, Michigan
claimed $631,248 in pension costs that were no allowable. The over claim occurred
primarily because Michigan did not base he claims on separately computed pension
costs for the Medicare segment. We recommended Michigan revise its claims to
eliminate the unallowable pension costs.